No.

3u tije 'upreine Court of the 011iteb 'tate

CHAZON QTA: QUANTITATIVE TRADING ARTISTS, LLC.,
and LAWRENCE I. FEJOKWU,
Applicants/Petitioners

V.

COMMODITY FUTURES TRADING COMMISSION,
Respondent.

APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION
FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT

To the Honorable Samuel A. Auto, Jr., Associate Justice and Circuit Justice for
the Third Circuit:
Applicants, Chazon QTA: Quantitative Trading Artists, LLC and Lawrence
I. Fejokwu respectfully request that the time to file a petition for a writ of
certiorari in this case be extended for 60 days, to and including July 22, 2019. The
United States Court of Appeals for the Third Circuit issued its opinion on
'December 13, 2018. (App. A, infra.) The Third Circuit denied the petition for
rehearing on February 20, 2019 (App. B, infra.). Without an extension of time, the
petition would be due on May 21, 2019. Applicants file this application more than
10 days before that date. S. Ct. R. 13.5. This Court will have jurisdiction pursuant
to 28 U.S.C.

§ 1254(1).

1 No publicly held company owns 10 percent of more of Chazon QTA: Quantitativ raRijtVE
LLC

-1-

MAY 9-2019

OFFICE OF THE

c Uppc•

CLER K
L

I

Background
This case involves salient issues with vast policy implications requiring the
Court's urgent attention and intervention. Specifically, the case involves
critical legal questions that are certain to reoccur in the administrative law
context and other contexts. Additionally, this case involves topical legal
issues that the court is currently engaged with in the areas of administrative
law and administrative agency deference.

Reasons for Granting an Extension of Time
The time to file a petition for a writ of certiorari should be extended for 60
days for the following reasons:
Since the decision below was issued, Applicants have continuously
and diligently sought to retain legal counsel but despite Applicants' best efforts,
have been unsuccessful in retaining legal counsel due to financial reasons.
Appellate representation at the Supreme Court level is extremely
expensive, far surpassing the significant fees, Applicants have already incurred in
legal representation at various levels below.
Applicants are at this point left with no other option but to proceed pro
se unless miraculously pro bono representation is secured.
Applicants need sufficient time to fully familiarize themselves with
Supreme Court rules and procedures, thoroughly review the record below,
conduct legal research, prepare the petition for writ of certiorari, and have the
petition printed in booklet format as Supreme Court rules mandate.
-2-

If Applicants are successful in obtaining pro bmw representation, as
they pray, such pro bono legal counsel will also require time to fully familiarize
themselves with Supreme Court rules and procedures (assuming they have not
practiced before the Supreme Court), thoroughly review the record below, conduct
legal research, prepare the petition for writ of certiorari, and have the petition
printed in booklet format as Supreme Court rules mandate.
No prejudice would arise from the requested extension. Respondent
CFTC will not be harmed, in the event, God forbid, that this Court denies the
petition.
Conclusion
For these reasons, the time to file a petition for a writ of certiorari should be
extended 60 days to and including July 22, 2019.
Respectfully submitted, with thanks,

Is! Lawrence I. Fejokwu
LAWRENCE I. FEJOKWU
Pro Se
CHAZON QTA:
QUANTITATIVE TRADING
ARTISTS, LLC
6905 Bellevue Avenue
Second Floor
Guttenberg, NJ 07093
(212) 202-0290
Law-Fej@ChazonQTA.com
May 6, 2019

-3-

